Audit Report




OIG-11-052
Audit of the Office of Thrift Supervision’s
Fiscal Years 2010 and 2009 Financial Statements


December 17, 2010




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 17, 2010


            MEMORANDUM FOR JOHN E. BOWMAN, ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of Thrift Supervision’s
                                    Fiscal Years 2010 and 2009 Financial Statements


            I am pleased to transmit the attached audited Office of Thrift Supervision’s (OTS)
            financial statements for fiscal years 2010 and 2009. Under a contract monitored
            by the Office of Inspector General, Lani Eko & Company, CPAs, PLLC (Lani Eko),
            an independent certified public accounting firm, performed an audit of the financial
            statements of OTS as of September 30, 2010 and 2009, and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by Lani Eko, are incorporated in the attachment:

                    •   Independent Auditor’s Report; and
                    •   Independent Auditor’s Report on Internal Control over Financial Reporting
                        and on Compliance and Other Matters.

            In its audit of OTS’ financial statements, Lani Eko found:

                    •   that the financial statements were fairly presented, in all material
                        respects, in conformity with accounting principles generally accepted in
                        the United States of America,
                    •   no matters involving internal control and its operation that are considered
                        material weaknesses, and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


Lani Eko also issued a management letter dated October 29, 2010, discussing a
matter involving internal control and its operation that was identified during the audit
but was not required to be included in the auditor’s reports.

In connection with the contract, we reviewed Lani Eko’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of internal
control or compliance with laws and regulations. Lani Eko is responsible for the
attached auditor’s reports dated October 29, 2010 and the conclusions expressed in
the reports. However, our review disclosed no instances where Lani Eko did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
     2010
Financial Report




Office of Thrift
 Supervision
                      Table of Contents
                                                        Page


Independent Auditors’ Report …………….….………..…..            1

Financial Statements ………………..………………..….…..               3


Notes to Financial Statements ……..…………...……….…           6


Independent Auditors’ Report on Internal Control Over
      Financial Reporting and on Compliance and
      Other Matters …………………………….….....                   15
                           INDEPENDENT AUDITOR’S REPORT



To the Inspector General
U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the U.S. Department of
the Treasury, Office of Thrift Supervision (OTS) as of September 30, 2010 and 2009, and the
related statements of operations and changes in net position, and cash flows for the years then
ended. These financial statements are the responsibility of the OTS’s management. Our
responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards and the OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

As discussed in Note 1 to the financial statements, in accordance with the provisions of
the Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law No: 111-203,
effective July 20, 2011, OTS will cease operations and its functions transfer to the Office of the
Comptroller of the Currency, Federal Deposit Insurance Corporation, and the Board of
Governors of the Federal Reserve System.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the OTS as of September 30, 2010 and 2009, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.


                                                 1
In accordance with Government Auditing Standards, we have also issued our report dated
October 29, 2010, on our consideration of the OTS’s internal control over financial reporting and
on our tests of its compliance with certain provisions of laws and regulations. The purpose of
that report is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the
results of our audits.




October 29, 2010
Alexandria, Virginia




                                                 2
                             UNITED STATES DEPARTMENT OF THE TREASURY

                                        OFFICE OF THRIFT SUPERVISION

                                  STATEMENTS OF FINANCIAL POSITION

                                                   (In thousands)

                                                                             As of September 30
                                                                           2010              2009
Assets


   Cash and cash equivalents (Note 3)                               $     138,443       $      127,667
   Accrued interest receivable                                              2,028                2,176
   Accounts receivable                                                        510                  202
   Investments held to maturity (Note 4)                                  213,861              232,109
   Property and equipment, net (Note 5)                                    28,293               28,440
   Other assets                                                             1,327                1,750

         Total Assets                                               $     384,462       $      392,344

Liabilities and Net Position

Liabilities

   Accounts payable                                                 $        1,312      $           2,585
   Accrued annual leave                                                     12,921                 12,504
   Workers' compensation liability (Note 6)                                  3,196                  3,655
   Deferred compensation liability (Note 7)                                    287                    405
   Deferred assessment revenue                                              51,310                 58,754
   Deferred rent credit                                                      2,015                  2,050
   Post-retirement benefit liability (Note 8)                               20,481                 19,247
   Other retirement plan liabilities (Note 9)                                8,380                  6,343
   Payroll, benefits, and withholding                                        8,692                  8,086
   Other accrued liabilities (Note 10)                                       3,296                  3,908

         Total Liabilities                                          $     111,890       $      117,537

Net Position

   Assumed capital                                                  $      41,037       $       41,037
   Retained earnings                                                      231,535              233,770

         Total Net Position (Note 11)                               $     272,572              274,807

         Total Liabilities and Net Position                         $     384,462       $      392,344


                      The accompanying notes are an integral part of these financial statements.



                                                          3
                         UNITED STATES DEPARTMENT OF THE TREASURY

                                    OFFICE OF THRIFT SUPERVISION

                 STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION

                                      For the Years Ended September 30

                                                  (In thousands)

                                                                          For the Years Ended
                                                                             September 30
                                                                         2010             2009
Revenues

   Industry assessments                                            $     214,422    $    240,112
   Examination, application, and security filing fees                      3,984           3,774
   Interest (Notes 3 & 4)                                                  4,656           5,516
   Rental income (Note 12)                                                 5,690           5,661
   Other                                                                   1,060             917

   Total Revenues                                                  $     229,812    $    255,980

Expenses

   Personnel compensation                                          $     121,631    $    127,087
   Benefits (Note 9)                                                      62,924          52,763
   Rent, communication, and utilities (Note 13)                            7,270           8,262
   Travel and transportation                                              17,010          17,941
   Services                                                                8,358           8,713
   Data processing                                                         2,586           3,095
   Building expenditures                                                   5,070           5,222
   Office equipment and software                                           2,538           2,856
   Miscellaneous                                                           3,127           3,713
   Depreciation and amortization                                           1,533           1,994

   Total Expenses                                                  $     232,047    $    231,646

Excess of (Expenses over Revenues) Revenues over Expenses          $      (2,235)   $     24,334

Net Position, Beginning Balance                                          274,807         250,473

Net Position, Ending Balance                                       $     272,572    $    274,807




   The accompanying notes are an integral part of these financial statements.




                                                        4
                          UNITED STATES DEPARTMENT OF THE TREASURY

                                    OFFICE OF THRIFT SUPERVISION

                                         STATEMENT OF CASH FLOWS

                                      For the Years Ended September 30

                                                 (In thousands)

                                                                                 For the Years Ended
                                                                                    September 30
                                                                               2010               2009
CASH FLOWS FROM OPERATING ACTIVITIES

Excess of (expenses over revenues) revenue over expenses              $         (2,235)    $       24,334

Adjustments to reconcile excess of revenues over expenses to
  net cash provided by operating activities:
      Amortization of net bond premium                                           3,093                 2,656
      Depreciation and amortization                                              1,533                 1,994

Changes in assets and liabilities:
     (Increase)/decrease in receivables                                           (160)                62
     Decrease/(increase) in other assets                                            423             (736)
     (Decrease)/increase in accounts payable                                    (1,273)           (1,663)
     (Decrease)/increase in other liabilities                                   (4,374)           (6,281)

      Net cash (used in) provided by operating activities             $         (2,993)    $       20,366

CASH FLOWS FROM INVESTING ACTIVITIES

      Purchases of investments                                        $        (34,846)    $     (85,863)
      Maturities of investments                                                  50,000           35,000

      Purchase of equipment                                                    (1,385)             -

      Net cash provided by (used in) investing activities             $         13,769     $     (50,863)

Net cash provided by (used in) operating and investing activities     $         10,776     $     (30,497)

Cash and cash equivalents, beginning of year                                   127,667            158,164

Cash and cash equivalents, end of year                                $        138,443     $      127,667




  The accompanying notes are an integral part of these financial statements.




                                                            5
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS

1. REPORTING ENTITY

The Office of Thrift Supervision (OTS) was created when the Financial Institutions Reform, Recovery, and
Enforcement Act of 1989 (FIRREA) abolished the Federal Home Loan Bank Board (FHLBB) and transferred all
examination and supervisory activities to OTS under the Department of the Treasury. The primary functions of
OTS are to: (1) charter federal savings and loan associations; (2) adopt regulations governing the operation of the
thrift industry; (3) conduct examinations of federal and state chartered savings institutions and their holding
companies; and (4) supervise compliance with federal laws and regulations and OTS directives, taking measures
needed to enforce such compliance and rehabilitate troubled institutions. FIRREA provides that OTS assess the
institutions it regulates to recapture operating costs. Assessments are collected semiannually on January 31 and
July 31.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection Act,
which includes the Enhancing Financial Institution Safety and Soundness Act of 2010 (the “Act”). The Act
abolishes OTS and transfers its duties to the Office of the Comptroller of the Currency (OCC), the Federal Reserve
and the Federal Deposit Insurance Corporation (FDIC) on July 21, 2011 (the “transfer date”). Under the Act, the
transfer of OTS functions to the OCC includes rule making authority, personnel, property and funds relating to
Federal savings associations.

Upon enactment of the Act, the OTS must pay the OCC for such amounts the OCC determines necessary for
expenses associated with the transfer of functions, including the expenses for personnel, property and
administrative services, during the period beginning on the date of the enactment of the Act and ending on the
transfer date.

2. SIGNIFICANT ACCOUNTING POLICIES

BASIS OF PRESENTATION

OTS has historically prepared its financial statements in accordance with generally accepted accounting principles
based upon accounting standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. In October 1999, the American Institute of Certified Public Accountants designated the
Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial statements of
federal government entities with respect to the establishment of generally accepted accounting principles. FASAB
has indicated, in the Statement of Federal Financial Accounting Standards (SFFAS) No. 34 “The Hierarchy of
Generally Accepted Accounting Principles, Including the Application of Standards Issued by the Financial
Accounting Standards Board,” that financial statements prepared based upon accounting standards published by
the FASB may also be regarded as being in accordance with generally accepted accounting principles for those
federal entities such as OTS that have issued financial statements based upon FASB accounting standards in the
past. Accordingly, consistent with historical reporting, OTS financial statements are presented in accordance with
accounting standards published by FASB.

CASH AND CASH EQUIVALENTS

Cash and cash equivalents consist of OTS’s account at the Department of the Treasury and funds invested
overnight by Treasury on behalf of OTS.

INVESTMENTS HELD TO MATURITY

Effective January 1, 1994, OTS adopted Statement of Financial Accounting Standards (SFAS) No. 115,
“Accounting for Investments in Certain Debt and Equity Securities.” Under the statement, OTS is required to



                                                         6
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS

2. SIGNIFICANT ACCOUNTING POLICIES (continued)

classify investment securities under three categories: (1) trading, (2) available for sale, and (3) held to maturity.
All of the agency’s investments consist of Treasury obligations. OTS has the intent and ability to hold these
investments to maturity. Therefore, all investments are classified as held to maturity and are stated at amortized
cost. Certain Treasury securities are purchased at a discount or premium. Premiums and discounts are amortized
over the term of the security using the interest method.

POST-RETIREMENT BENEFITS

OTS provides certain health and life benefits for all retired employees that meet eligibility requirements. Effective
January 1, 1993, OTS adopted SFAS No. 106, “Employers’ Accounting for Postretirement Benefits Other Than
Pensions,” to account for its share of the costs of those benefits. Under this statement, OTS’s share of the
estimated costs that will be paid after retirement is being accrued by charges to expense over the employees’ active
service periods to the dates that they are fully eligible for benefits, except that OTS has elected to amortize the
transition amount (unfunded cost at January 1, 1993) over 20 years beginning in 1993 in accordance with the
option available in the statement. Prior to 1993, OTS expensed its share of the costs as the retirees incurred claims
and as OTS paid premiums. Pursuant to an agreement with the Office of Personnel Management (OPM) in 1994,
OTS agreed to pay a one-time fee to OPM in consideration of OPM assuming the health care portion of the post-
retirement plan liability.

ANNUAL, SICK, AND OTHER LEAVE

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance in the accrued
annual leave account reflects current pay rates. Sick leave and other types of nonvested leave are charged to
operating costs as taken.

PROPERTY AND EQUIPMENT

Fixed assets acquired by OTS are capitalized at cost. Individual fixed assets with costs in excess of $50,000 and
bulk purchases with costs in excess of $500,000 are capitalized. Aggregate purchases of multiple items directly
related to a specific project (for example, leasehold improvements) are capitalized when the total cost exceeds a
minimum threshold of $500,000, and the annual amortization amount exceeds $50,000. The building owned by
OTS is being depreciated over 50 years. The agency’s capitalized furniture, fixtures and equipment are
depreciated over 3 to 5 years. Depreciation is computed on a straight-line basis.

INCOME TAXES

As an agency of the Department of the Treasury, OTS is exempt from all federal and state taxes based on income.
OTS is also exempt from state and local property and real estate taxes.




                                                          7
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS

3. CASH AND CASH EQUIVALENTS

The following table summarizes the balances of cash and cash equivalents (in thousands):

                                                        September 30
                                                      2010         2009
         Cash                               $           1,000 $        965
         Overnight investment with Treasury           137,443      126,702
         Total cash and cash equivalents        $     138,443 $     127,667

Interest earned on cash and overnight investments totaled $0.1 million for 2010 and 2009.

4. INVESTMENTS HELD TO MATURITY

Investment securities held at September 30, 2010 and 2009 are marketable Treasury securities maturing through
January 2014. The amortized cost and market value of these securities are summarized as follows (in thousands):

                                                                                  September 30
                                                                               2010          2009
         Face value                                                       $    210,000 $     225,000
         Unamortized premium, net of unamortized discount                        3,861         7,109

         Book value of investments held to maturity                       $    213,861 $       232,109

         Market value                                                     $    220,847 $       235,738

Effective interest yields range from .60 percent to 3.57 percent. Interest earned on these investments totaled $4.6
million and $5.4 million for 2010 and 2009, respectively.

5. PROPERTY AND EQUIPMENT

The following table summarizes the fixed asset balances (in thousands):

                                                                                  September 30
                                                                               2010          2009
         Land                                                             $      7,101 $       7,101
         Building                                                               49,188        49,188
         Furniture, fixtures, and equipment                                      4,256         3,926
         Leasehold Improvements                                                  1,852         1,852
          Total cost                                                      $     62,397 $      62,067

         Accumulated depreciation, building                               $    (30,758) $     (29,705)
         Accumulated depreciation, furniture, fixtures, and equipment           (2,287)        (3,002)
         Accumulated amortization, leasehold improvements                       (1,059)          (920)
          Total accumulated depreciation and amortization                 $    (34,104) $     (33,627)

         Property and equipment, net                                      $     28,293 $        28,440


                                                         8
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS


6. WORKERS’ COMPENSATION LIABILITY

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered
federal civilian employees injured on the job, employees who have incurred a work-related occupational disease,
and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Benefit
claims incurred for active and former employees of OTS and its predecessor, the Federal Home Loan Bank Board,
are administered by the U.S. Department of Labor (DOL) and are ultimately paid by OTS. Actuarial estimates of
future workers’ compensation estimates are generated by DOL. The estimated actuarial liability for FECA benefits
includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. This method utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. The annual benefit payments have been discounted to present value using
OMB’s economic assumptions for 10-year Treasury notes and bonds. Based on information provided by DOL and
the Department of the Treasury, OTS estimates that its FECA liability was $3.2 million and $3.7 million as of
September 30, 2010 and September 30, 2009, respectively. Actual FECA expenses currently payable are included
in other accrued liabilities and totaled $894 thousand and $904 thousand as of September 30, 2010 and September
30, 2009, respectively. Changes in the actuarial liability and payments related to FECA are reflected as reductions
or increases in benefits expense in the appropriate year.

7. DEFERRED COMPENSATION LIABILITY

Under provisions of FIRREA, OTS assumed the Deferred Compensation Plans of the employees transferred from
the Federal Home Loan Banks of Dallas and San Francisco. These plans allowed employees to defer a portion of
their income and provided for employer matching contributions. OTS froze these plans and discontinued all plan
deferrals or employer matches effective January 1, 1991. Under the assumed plans, benefits were intended to be
provided by cash value life insurance policies issued by Mutual Benefit Life; Mutual Benefit Life went into
rehabilitation on July 16, 1991. OTS surrendered all but two of these policies in 1994 and retained the full cash
values on deposit with Mutual Benefit Life. Under the rehabilitation plan, withdrawal of cash values prior to
December 31, 1999, was restricted and subject to substantial withdrawal penalties. In 2003, OTS elected to receive
the cash values for surrendered policies and invest the funds with Treasury. The last remaining policy was
surrendered in May 2010, previously included in other assets. The balance in the accompanying Statements of
Financial Position is $0 in 2010 and $18 thousand in 2009. Plan payments are funded by OTS.


8. POST-RETIREMENT BENEFIT LIABILITY

OTS sponsors a life insurance plan (the Plan) for all employees that meet eligibility requirements. The agency
funds benefit costs principally on a pay-as-you-go basis, with retiree contributions that are adjusted annually based
on certain factors, some of which are discretionary. The Plan is unfunded, with participants paying a portion of the
costs. As stated in the Significant Accounting Policies, OTS changed its accounting policy with respect to the Plan
as of January 1, 1993. OTS elected to defer recognition of the Plan’s transition obligation and amortize such
obligation over 20 years on a straight-line basis.

A Memorandum of Understanding (MOU) was signed in December 1994 between OPM and OTS. The purpose of
the MOU was to implement legislation permitting annuitants who retired from OTS prior to January 1995, and
who were enrolled in the OTS health plan, to enroll in the Federal Employees Health Benefits (FEHB) plan for
coverage effective on or after January 8, 1995.

OTS agreed to pay a one-time fee to OPM of approximately $11.0 million in consideration of OPM assuming the
health portion of the post-retirement plan liability. In accordance with SFAS No. 106, the agreement with OPM


                                                         9
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                       NOTES TO FINANCIAL STATEMENTS


8. POST-RETIREMENT BENEFIT LIABILITY (continued)

constitutes a settlement and, accordingly, OTS recognized a gain on the settlement of approximately $16.7 million
in 1994. Such gain includes the health portion of the transition obligation that OTS elected to initially recognize
over 20 years in 1993. The post-retirement liability of $20.4 million in the Statements of Financial Position at
September 30, 2010 and $19.2 million at September 30, 2009 represents OTS’s recognized portion of the
remaining liability for participants’ future life insurance benefits. Net periodic post-retirement benefit cost for life
insurance provisions under the Plan included the following components in 2010 and 2009 (in thousands):

                                                                                      For the Years Ended
                                                                                         September 30
                                                                                      2010           2009
         Service cost - current year                                            $          569 $          573
         Interest on accumulated post-retirement benefit obligation                       1,086            1,030
         Amortization of transition obligation                                              253              253
         Net post-retirement benefit expense                                    $         1,908 $          1,856

         The following table sets forth the Plan’s funded status reconciled with the liability recognized in
         the
         Statements of Financial Position (in thousands):
                                                                                         September 30
                                                                                    2010              2009
         Accumulated post-retirement benefit obligation:
               Retirees                                                       $         13,627 $        11,187
               Other fully eligible participants                                           207              107
               Other active participants                                                10,070            8,801
         Accumulated post-retirement benefit obligation                                 23,904          20.095

         Unrecognized transition obligation                                               (568)            (821)
         Unrecognized net (loss)                                                        (2,855)             (27)
         Total post-retirement benefit liability                                $        20,481 $         19,247

The weighted average discount rates used in estimating the accumulated post-retirement benefit obligations were
5.0 percent at September 30, 2010 and 5.5 percent at September 30, 2009.


9. OTHER RETIREMENT PLAN LIABILITIES

OTS employees participate in three retirement systems. Two are administered by OPM. For funding purposes,
these two plans function as defined contribution plans; however, the retirement benefits accrue in a manner
consistent with a defined benefit plan. The third is a private defined benefit plan, the Financial Institutions
Retirement Fund (FIRF), administered by Pentegra Retirement Services (Pentegra).

The Civil Service Retirement System (CSRS) is two-tiered. For employees hired prior to January 1, 1984, OTS
withholds 7 percent of regular earnings. OTS also contributed 7 percent of regular earnings during 2010 and 2009
for each employee in this tier. The sum is transferred to the Civil Service Retirement Fund, from which this

                                                          10
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

employee group will receive retirement benefits. Employees do not contribute to, or receive benefits from, the
Social Security System.

For employees with more than 5 years of (not necessarily continuous) service, hired on or after January 1, 1984,
who are covered under CSRS/Offset, OTS withholds 0.8 percent of regular earnings, in addition to Social Security
withholding. OTS also contributed 7 percent of regular earnings in 2010 and 2009, for each employee in this tier.
When regular earnings exceed the FICA maximum wages, employees covered under this tier of CSRS are required
to have 7 percent of their earnings withheld. This employee group will receive retirement benefits from both CSRS
and the Social Security System.

Beginning in January 1987, all employees hired since January 1, 1984, either as new employees or having less than
5 years of accumulated service (with a break in service over one year) are included in the Federal Employee
Retirement System (FERS). For these employees, OTS withheld 0.8 percent of regular earnings in 2010 and 2009.
The agency contributed 11.2 percent of regular earnings in both 2010 and 2009 for FERS employees. This group
of employees will receive benefits from FERS as well as the Social Security System, to which they concurrently
contribute.

Pursuant to FIRREA, the Office of Regulatory Activities (ORA) and its twelve examination districts became part of
OTS. OTS assumed the cost of their retirement system, which is part of FIRF. OTS contributes a percentage of
total FIRF salary. The percentage varies from year to year. Employees do not contribute to FIRF but do contribute
to the Social Security System. Changes in percentages are based on the number and average age of active FIRF
employees, the number of people who have retired, the benefits paid out, and adjustments to the actuarial gain or
loss.

The Minimum Required Contribution (MRC) for each FIRF plan year consists of two components: (1) normal cost
and (2) amortization of the retirement plan’s shortfall, if any. For the plan year beginning July 1, 2010, OTS’s
estimated shortfall was $74.7 million. The plan year shortfall is amortized over approximately 7 years in
conformance with the Pension Protection Act of 2006 and IRS Rules.

Prior to OTS’s fiscal year closing, OTS receives notice of the plan year MRC from the FIRF plan administrator
Pentegra Retirement Services. OTS recognizes one-fourth of the MRC as current fiscal year expense and the
remainder in the next fiscal year. The MRC for the plan year beginning July 1, 2009 was $25.3 million, which
was reduced by paying it in full early in the plan year. Accordingly, OTS recognized $6.3 million in expenses for
the fourth quarter of fiscal year 2009. The remainder, $19 million is expensed in fiscal year 2010.

The plan year beginning July 1, 2008 was the first plan year under the rules of the Pension Protection Act of 2006
(PPA). Under this law, the MRC consists of the Target Normal Cost and a shortfall amortization, if any. The
shortfall amortization is calculated by using the OTS funding target. The key components are the net present value
of future liabilities of $481.3 million, and plan assets valued at $406.5 million. The resulting funding percentage
provided by Pentegra Retirement Services of 84.47% is below the 96% minimum required funding target by the
PPA for the plan year. Therefore, OTS’s MRC for the plan year beginning July 1, 2009 equals the Target Normal
Cost plus the minimum contribution amortization shortfall totaling $32.9 million. Accordingly, OTS recognizes
$8.4 million in expenses for the fourth quarter of fiscal year 2010. The remainder, $24.5 million will be expensed
in fiscal year 2011.

OTS funds a portion of CSRS and FERS pension benefits and collects the appropriate payroll withholdings. OTS
does not account for the assets of either government retirement plan, nor does it have actuarial data with respect to

                                                         11
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


9. OTHER RETIREMENT PLAN LIABILITIES (continued)

accumulated plan benefits or the unfunded pension liability relative to its employees. These amounts are reported
by OPM for both government retirement systems and are not allocated to the individual agencies.

OTS also offers its own Defined Contribution (DC) plan. Prior to May 10, 2009, OTS employees participated in
the Financial Institutions Thrift Plan (FITP), a 401(k) plan administered by Pentegra Retirement Services.
Effective May 10, 2009, OTS switched providers and began offering its own plan, the OTS 401(k) Plan
administered by Charles Schwab. CSRS and FERS employees participate in both the TSP and the OTS 401(k)
Plan and FIRF employees participate in the OTS 401(k) Plan only. Between the TSP and the OTS 401(k) Plan,
OTS matches employee contributions as follows: up to 4 percent for CSRS participants, up to 9 percent for FERS
participants, and up to 7 percent for FIRF participants.

The liabilities for all OTS plans, included in other retirement plan liabilities in the accompanying Statements of
Financial Position, are as follows (in thousands):

                                    September 30
                                  2010        2009
         FIRF Total           $    8,380 $     6,343

The expenses for all OTS plans, included in benefits expense in the accompanying Statements of Operations and
Changes in Net Position, are as follows (in thousands):

                                For the Years Ended
                                   September 30
                                 2010         2009
         CSRS                 $      869 $       901
         FERS                     6,010        5,888
         FIRF                    27,401       16,363
         FITP                     5,934        5,839
         TSP                      2,508        2,326
              Total           $ 42,722 $ 31,317


10. OTHER ACCRUED LIABILITIES

The following table summarizes the other accrued liabilities (in thousands):

                                                       September 30
                                                    2010          2009
         Post-employment benefits payable      $        894 $         904
         Goods and services                           2,402         3,004
             Total other accrued liabilities   $      3,296 $       3,908




                                                         12
                          UNITED STATES DEPARTMENT OF THE TREASURY
                                 OFFICE OF THRIFT SUPERVISION

                                   NOTES TO FINANCIAL STATEMENTS


11. NET POSITION

The land and building owned by the FHLBB were transferred to OTS under FIRREA. OTS also assumed all
furniture, fixtures and equipment previously owned by FHLBB. These assets were recorded at their existing book
values established in the FHLBB’s accounting records. Their value is reported as assumed capital in the Net
Position section of the comparative Statements of Financial Position. Assumed capital totaled $41.0 million as of
September 30, 2010 and 2009.

Beginning in fiscal year 2005, OTS set aside a portion of its retained earnings as contingency and special reserves.
The contingency reserve supports OTS’s ability to accomplish its mission in the case of significant revenue loss.
Unforeseeable events, such as a major change in the thrift industry, are beyond the control of OTS. The special
reserve supplements revenue from assessments and other sources that are made available to fund OTS’s annual
budget. The special reserve reduces the effect on operations of unforecasted revenue shortfalls or unbudgeted and
unanticipated requirements or opportunities. Undelivered orders represent the amount of goods and services
ordered that have not been actually or constructively received and for which amounts have not been prepaid or
advanced.

The following table summarizes the components of the retained earnings (in thousands):

                                                       September 30
                                                    2010          2009
              Contingency reserve              $     160,898 $    174,719
              Special reserve                         60,000        50,000
              Undelivered orders                      10,637         9,051
                  Total retained earnings      $     231,535 $    233,770

12. RENTAL INCOME

OTS leases a portion of its building as office and retail space under noncancellable operating leases expiring at
various dates through 2021. Some of the leases provide renewal options. The leases provide for annual base rent
and additional rents for building operating expenses. Some leases provide for fixed future increases in rents over
the term of the lease.

The future minimum rentals to be received under noncancellable operating lease arrangements, not including
renewals, are as follows (in thousands):

        Years ending
        September 30            Total
        2011                  $  5,142
        2012                     5,215
        2013                     5,337
        2014                       919
        2015                       293
        Thereafter               1,392
                              $ 18,298


Rental income totaled $5.7 million for 2010 and 2009.

                                                        13
                           UNITED STATES DEPARTMENT OF THE TREASURY
                                  OFFICE OF THRIFT SUPERVISION

                                    NOTES TO FINANCIAL STATEMENTS


13. LEASE COMMITMENTS

OTS conducts most of its regional operations in leased facilities under noncancellable operating leases expiring at
various dates through 2020. Many of the leases contain a provision to renew at the end of the initial term for an
additional one to ten years. The rental payments are based on a minimum rental plus a proportional share of
building operating expenses and taxes.

Some of the operating leases provide for rental escalations or stated annual rental increases in the amount of base
rent over the lives of the leases. The accompanying comparative Statements of Operations and Changes in Net
Position reflect rent expense on a straight-line basis over the lives of the leases.

The minimum rental commitments under noncancellable operating leases are as follows (in thousands):

         Years ending
         September 30               Total
         2011                   $    3,755
         2012                        2,745
         2013                        2,342
         2014                        1,919
         2015                        1,864
         Thereafter                  5,930

                  Total         $   18,555

Rent expense under noncancellable operating leases totaled $4.4 million and $4.1 million for 2010 and 2009,
respectively.

14. COMMITMENTS AND CONTINGENCIES

There are approximately six lawsuits pending against the United States in the Court of Federal Claims and the
Court of Appeals for the Federal Circuit, in connection with Congress’s elimination of the capital treatment of
supervisory goodwill or other intangible assets of certain thrift institutions. These cases arise from the enactment
of the Financial Institutions Reform, Recovery and Enforcement Act of 1989. The U.S. Department of Justice
(Department of Justice) is defending these cases on behalf of the United States, and OTS is supporting the
Department of Justice in its defense efforts. Under 28 U.S.C. § 2517, any judgment issued by the Court of Federal
Claims must be paid from appropriated funds. Therefore, OTS funds, which are non-appropriated, cannot be used
to pay judgments in these cases.

In addition, there is a preliminary matter that has not yet reached the point of litigation. The claimant has
submitted an administrative claim for $5 million in damages, but OTS has not yet issued a decision on the claim.
Given the preliminary stage of this matter, OTS is not presently able to estimate either the likelihood of success or
any potential loss that may ultimately result if litigation ensues.

15. SUBSEQUENT EVENTS

OTS has evaluated subsequent events from the statements of financial position date through October 29, 2010, the
date at which the financial statements were available to be issued, and determined there are no other items to
disclose.


                                                         14
                        INDEPENDENT AUDITOR’S REPORT ON

                INTERNAL CONTROL OVER FINANCIAL REPORTING

                    AND ON COMPLIANCE AND OTHER MATTERS



To the Inspector General
U.S. Department of the Treasury



We have audited the financial statements of the U.S. Department of the Treasury, Office of
Thrift Supervision (OTS) as of and for the years ended September 30, 2010 and 2009, and have
issued our report thereon dated October 29, 2010. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

Internal Control Over Financial Reporting

In planning and performing our audits, we considered the OTS’ internal control over financial
reporting as a basis for designing our auditing procedures, obtained an understanding of the
design effectiveness of internal controls, determined whether the internal controls have been
placed in operation, assessed control risk, and performed tests of the OTS’s internal controls for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the OTS’ internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of OTS’ internal control over
financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable



                                               15
possibility that a material misstatement of the OTS’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.

Compliance and Other Matters

The management of OTS is responsible for complying with laws and regulations applicable to
the OTS. As part of obtaining reasonable assurance about whether the OTS’ financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
applicable laws and regulations and contracts, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and accordingly,
we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards or Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.

We noted a matter that we reported to management of OTS in a separate letter dated October 29,
2010

This report is intended solely for the information and use of the Inspector General of the U.S.
Department of the Treasury, the management of the OTS, the OMB, the Government
Accountability Office and Congress and is not intended to be and should not be used by anyone
other than these specified parties.




October 29, 2010

Alexandria, VA




                                                 16
